f

'

3

IN THE
SUPREME COURT OF THE UNITED STATES
NO; 1D17-3675

APPENDIX
Mario Daniels, DC # N17238
DeSoto Correctional Institution Annex
13617 Southeast Highway 70
Arcadia, Florida 34266-7800
Pro Se Petitioner

l

t
V1

-i

t

ft

EXHIBIT “A”
*
1

»

l

1
I

S

1

i

•i

It

First District Court of Appeal
State of Florida
No. 1D17-3675
Mario Daniels,
Appellant,
v.
State of Florida,
Appellee.

On appeal from the Circuit Court for Leon County.
Angela C. Dempsey, Judge;June 8, 2020

WlNOKUR, J.
A jury found that Mario Daniels committed aggravated
assault while possessing and discharging a firearm, in addition to
other crimes. After appellate counsel filed an Anders1 brief, we
directed briefing as to whether Daniels’ motion for judgment of
acquittal on his aggravated assault charge should have been
granted based on the victim’s testimony that she was not put in
fear. After briefing, we find that our precedent requires
affirmance.

1 Anders v. California, 386 U.S. 738 (1967).

i

,ij

Trial
In between arguments, threats, and punches, Mario Daniels
and his then-girlfriend, the victim, decided to break up. Daniels
packed up his belongings from the victim’s house and drove, with
the victim in the passenger’s seat and her children in the back, to
another woman’s house. During the drive, Daniels threatened to
shoot and kill the victim multiple times and, as the car stopped,
he took out a pistol and fired it several times through a window.
The victim, again in a relationship with Daniels at the time of
trial, denied that Daniels had hit her and stated that she did not
remember whether he shot a gun while next to her in the car.
The victim acknowledged previously telling police that Daniels
had shot the gun out of the car, but testified that she did not see
him with a gun, no gun was pointed at her, and she was never in
fear from having a gun pointed at her. The jury found that
Daniels did in fact commit an aggravated assault against the
victim and fired a gun.
Analysis
Section 784.011, Florida Statutes, prohibits assault, which
“is an intentional, unlawful threat by word or act to do violence to
the person of another, coupled with an apparent ability to do so,
and doing some act which creates a well-founded fear in such
other person that such violence is imminent.”2 Daniels argues
that the statute requires that the threat must objectively be one
that would put a reasonable person in fear (“well-founded”) and
subjectively does put the victim in fear (“creates . . . fear in such
other person”). Because the victim denied that she was in fear,
Daniels argues that the State presented insufficient evidence of
assault. We disagree.
This Court and others have held that whether the victim
actually testifies that he or she was in fear is not conclusive of
the fear element, as long as “a reasonable person would
experience a well-founded fear of imminent harm.” Task v.
2 An aggravated assault is an assault 1) with a deadly
weapon without an intent to kill, or 2) with an intent to commit a
felony. § 784.021, Fla. Stat.
2

: *>

Rogers, 246 So. 3d 1304, 1305 (Fla. 1st DCA 2018) (“Appellate
courts apply an objective standard in determining whether a
reasonable person would experience a well-founded fear of
imminent harm.”). See also Fussell v. State, 154 So. 3d 1233, 1236
n.5 (Fla. 1st DCA 2015) (In determining whether evidence of
assault is sufficient regarding the victim's fear, “[w]e have
rejected the view that the state must meet both an objective and
a subjective standard.”).
This issue mostly arises when a victim either does not testify
or does not specifically testify as to whether he or she was put in
fear by the defendant’s threat, but the fact finder can infer that
the victim was fearful. In this situation, every district court has
held that an objective standard applies, irrespective of the lack of
the victim’s testimony. See, e.g., Bryant v. State, 154 So. 3d 1164,
1165 (Fla. 2d DCA 2015); Johnson v. State, 888 So. 2d 691, 693
(Fla. 4th DCA 2004) (noting that “the fact the victim did not
testify, and thus could not describe or articulate any such fear,
does not bar a conviction”); L.R.W. v. State, 848 So. 2d 1263, 1266
(Fla. 5th DCA 2003) (holding that “[i]f the circumstances are such
as would ordinarily induce fear in the mind of a reasonable
person, then the victim may properly be found to have been in
fear”); Calvo v. State, 624 So. 2d 838, 839 (Fla. 5th DCA 1993)
(noting that “a court may find that the victim was in fear without
the victim testifying as to the victim’s own state of mind
concerning fear”); McClain v. State, 383 So. 2d 1146, 1147 (Fla.
4th DCA 1980) (noting that “there is no requirement that the
victim in an assault actually testify to his own state of mind”);
Gilbert v. State, 347 So. 2d 1087, 1088 (Fla. 3d DCA 1977)
(holding that “where the circumstances were such as to ordinarily
induce fear in the mind of a reasonable man, then the victim may
be found to be in fear, and actual fear need not be strictly and
precisely shown”). However, courts have applied an objective
standard even when the victim denies being in fear. See Sullivan
v. State, 898 So. 2d 105, 108 (Fla. 2d DCA 2005) (holding that the
deputy’s “testimony that during the episode, he did not believe
that violence to him was imminent” was “not dispositive” to
determine if the defendant committed an assault); Thomas v.
State, 183 So. 2d 297, 300 (Fla. 3d DCA 1966) (“Even though the
victim herein testified that he was never in fear . . . the proper
rule is that if the circumstances attendant to the robbery were
3

such as to ordinarily induce fear in the mind of a reasonable man,
then the victim may be found to be in fear, and actual fear need
not be strictly and precisely shown.”).3 This result logically
follows from the use of an objective standard. A denial of fear is
certainly a factor that may be weighed against other
circumstances presented, but it is not conclusive. And in this
case, there is evidence to support the conclusion that Daniels’
conduct was sufficient to create well-founded fear.4
As Daniels’ threats and actions could create a well-founded
fear of imminent violence in a reasonable person, see Williams v.
State, 238 So. 3d 915, 916-17 (Fla. 1st DCA 2018), we affirm his
conviction for aggravated assault.

Affirmed.
M.K. THOMAS, J., concurs; MAKAR, J., concurs specially with
opinion.

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

3 While Thomas was a robbery case, robbery is theft “when in
the course of the taking there is the use of force, violence, assault,
or putting in fear§ 812.13(1), Fla. Stat. When the robbery
involves assault or putting in fear, the fear element is the same
as assault. For example, in describing the analysis of the fear
element in Fussell, this Court cited Thomas v. State, 989 So. 2d
735 (Fla. 1st DCA 2008) and Cliett v. State, 951 So. 2d 3 (Fla. 1st
DCA 2007), both robbery cases.
4 We reject Daniels’ argument that the evidence was not
sufficient to induce well-founded fear of imminent violence
notwithstanding the victim’s testimony.
4

-

*fl.

MAKAR, J., concurring specially.
The element of victim fear, and its proof at trial, is at issue
in this aggravated assault case, one in which the defendant
verbally threatened his on-again/off-again girlfriend and then
fired a gun out of the window of the car in which they were
traveling, but she disavowed any fear about the episode at trial.
Defendant says a judgment of acquittal is required because the
victim said she lacked fear; the State says it need only prove that
the victim should have been in fear, as the jury was instructed.
The language of the assault statute favors the defendant’s view,
but the interpretive trend in Florida has been to uphold the use
of a reasonable person standard by which fear may be inferred
and, as here, the victim’s motive to deny fear can be explained.
To begin, by statute an “‘assault’ is an intentional, unlawful
threat by word or act to do violence to the person of another,
coupled with an apparent ability to do so, and doing some act
which creates a well-founded fear in such other person that such
violence is imminent.” § 784.011(1), Fla. Stat. (2020) (emphasis
added). “Aggravated assault” is “an assault: (a) With a deadly
weapon without intent to kill; or (b) With an intent to commit a
felony.” Id. § 784.021(l)(a) & (b).
By their terms, the statutory phrases “to the person of
another” and “fear in such other person” clearly require that a
specific victim actually be in fear as an element of an assault (or
an aggravated assault). Fussell v. State, 154 So. 3d 1233, 1236
(Fla. 1st DCA 2015) (“In assault cases, the state must prove the
victim was in fear.”). For this reason, proof of fear in an assault
case focuses upon “the person” who is the victim of the assault; it
is a subjective, person-centric inquiry. Indeed, in multiple victim
cases an ‘Individual determination is called for as to each alleged
victim of assault.” Id. (emphasis added).
This person-centric feature of the assault statute, however,
has been interpreted differently depending on whether the victim
testifies or not. In cases where the victim testifies, the State must
meet both a subjective and objective standard of proof; in cases
where the victim does not testify, it need not. And the statutory
language has been diluted by judicial reliance on caselaw
5

involving other crimes, such as robbery, which do not have a
requirement of actual victim fear.
When a victim of an alleged assault testifies, a two-part
inquiry applies: the evidence must show an actual, subjective fear
on her part to satisfy the statute; but the evidence must also
show that her fear was “well-founded” and objectively reasonable
under the circumstances. See, e.g., L.R. v. State, 698 So. 2d 915,
916 (Fla. 4th DCA 1997) (“Where the victim testifies, the victim’s
subjective perception of fear, so long as it is determined to be
well-founded, is sufficient to prove the element of fear.”).
Consistent with the assault statute’s language, a subjective,
actual fear on the victim’s part must exist and it must be
objectively “well-founded” to establish the element of victim fear.1
Both a subjective fear and an objective basis for that fear must be
shown; it is misnomer to say otherwise.
When the victim of an alleged assault does not testify, and
her subjective* actual fear is unknown, an exception has evolved
to the long-standing general rule2 that the assault victim must be
shown to have actually experienced fear. To fill the evidentiary
1 In these situations, appellate courts have upheld
convictions for assault where the victim said she was subjectively
fearful, and the fear was deemed well-founded under an objective
standard of reasonableness. See, e.g., M. M. v. State, 391 So. 2d
366, 367 (Fla. 1st DCA 1980) (victim testified that he was not
afraid of defendant until he pointed gun at him). Likewise, courts
have overturned convictions where the victim testified she was
subjectively fearful, but the fear was not well-founded under an
objective standard of reasonableness. See, e.g., L.R., 698 So. 2d at
916 (victim’s equivocal testimony that she “might have been
fearful” insufficient).
2 See State v. White, 324 So. 2d 630, 631 (Fla. 1975) (rejecting
State’s argument that such evidence is not required), affg, White
v. State, 299 So. 2d 143, 144 (Fla. 1st DCA 1974) (holding that
victim fear is an element of aggravated assault and that
defendant was entitled to instruction allowing evidence that
victim was not placed in fear).
6

gap, courts have used a substitute for the required element of
actual fear: whether a reasonable (but imagined) person would
feel fear under the circumstances; if so, it can be inferred that the
victim must have too.
Under this approach, the defendant can be convicted of
assault without evidence of the victim’s actual fear, provided
evidence exists that she should have been fearful; indeed, one
victim’s testimony that she was fearful can be deemed sufficient
to prove fear by a second victim who did not testify, in essence a
form of transferred fear. Thomas v. State, 989 So. 2d 735, 736
(Fla. 1st DCA 2008) (testimony of victim as to facts surrounding
an offense sufficient as to second victim who did not testify). This
approach is an important one, particularly where a victim is
unable to testify or lacks memory as to how the assault occurred.
A standard jury instruction—used in this case—was
developed long ago to address situations where a victim does not
testify.3 Notably, the three cases cited by the standard jury
instruction committee in support of the instruction’s application
in assault cases each involve either (a) the lack of witness
testimony as to fear in an assault case or (b) a robbery case.4 The
interlacing of these two lines of precedent (no witness
3 Fla. Std. Jury Instr. (Crim) 8.2. (“If the circumstances were
such as to ordinarily induce a well-founded fear in the mind of a
reasonable person, then (victim) may be found to have been in
fear, and actual fear on the part of (victim) need not be shown.”).
4 McClain u. State, 383 So. 2d 1146, 1147 (Fla. 4th DCA
1980) (recognizing that victim fear is required but tha.t a “very
clear inference” of fear was shown such that a “jury could find
that a reasonable man under such circumstances would be afraid
and that these individuals were in fact in fear.”); Smithson v.
State, 689 So. 2d 1226 (Fla. 5th DCA 1997) (robbery case); Gilbert
v. State, 347 So. 2d 1087 (Fla. 3d DCA 1977) (extending the
ruling from a robbery case where victim did not testify to
aggravated assault such that “fear in the mind of a reasonable
man” need only be shown and “actual fear need not be strictly
and precisely shown”).
7

j _

testimony/robbery) has resulted in somewhat imprecise language
saying that a subjective and objective test is not always required
under section 784.011, the assault statute. See Fussell, 154 So. 3d
at 1236 (this Court has “rejected the view that the state must
meet both an objective and a subjective standard.”). Like the
standard jury instruction committee, support for this statement
is also found in cases where (a) the victim did not testify at all or
as to her fear or (b) the offense at issue (such as robbery) involved
different statutory language thereby limiting its application to
those situations, not the one at issue here. Id.
Reliance on robbery cases is inapt because the robbery
statute’s language is markedly different from the assault
statute’s as to the fear element. Robbery requires that during
“the course of the taking there is the use of force, violence,
assault, or putting in fear.” § 812.13, Fla. Stat. (2020) (emphasis
added). This language does not require that “putting in fear” be
directed at a particular “person,” only that the inducing of fear
generally existed in the commission of the taking.5 In contrast,
5 Cliett v. State, 951 So. 2d 3, 4 (Fla. 1st DCA 2007) (noting
that the standard instruction on robbery “does not use the term
‘subjective,’ nor does it ask the jury to view the circumstances
from the victim’s point of view. The instruction simply asks
whether, from a jury’s external viewpoint, the victim was put in
fear-an objective analysis.”); see also Gilbert v. State, 347 So. 2d
1087, 1088 (Fla. 3d DCA 1977) (“we find that the defendant’s
action in pointing the pistol at the victim’s head in plain view of
the victim and other persons present met all of the essential
elements of aggravated assault. It is unlikely in the course of
human events that a person in [victim’s] circumstances would not
have a well-founded fear that violence is imminent when a pistol
is pointed at her head.”); Thomas i>. State, 183 So. 2d 297, 300
(Fla. 3d DCA 1966) (“Even though the victim herein testified that
he was never in fear we do not perceive that this is the effective
rule. It seems to us that the proper rule is that if the
circumstances attendant to the robbery were such as to ordinarily
induce fear in the mind of a reasonable man, then the victim may
be found to be in fear, and actual fear need not be strictly and
precisely shown.”).
8

the language in the assault statute requires a threat to a “person
of another” and a “well-founded fear in such other person. ” Id.
§ 784.011(1) (emphasis added). Plainly, the statutory language is
different; the assault language personalizes the element of fear in
a particular person while the robbery statute does not; the former
emphasizes an actual subjective and well-founded fear in a real
person while the latter relies upon a more general finding that a
reasonable person (not the actual person) would have been put in
fear under the circumstances of the robbery. Nonetheless,
Florida’s jurisprudence on assault has a dose of robbery
principles injected into it.
This all leads to the question of what happens when the
victim testifies that she was not fearful during an alleged
criminal episode, as occurred here. In a civil assault case based
on
general
tort
principles,
the
lack
of
fear/apprehension/anticipation6 dooms the victim’s claim for lack
of a key element. But in a criminal case, which has broader
societal concerns and purposes, can the victim’s testimony that
she lacked subjective fear be disregarded and replaced with an
objective standard of whether a reasonable person would have
been fearful, even if she was not? That’s what happens when a
victim does not testify, so why shouldn’t it apply here where she
does?
One searches long and hard to find a published Florida
appellate case that directly explains what ought to happen when
an assault victim expresses no fear, but a reasonable person
would. The closest is Sullivan v. State, 898 So. 2d 105, 108 (Fla.
2d DCA 2005), where an officer testified at trial that he “did not
believe that violence to him was imminent.” On appeal, the
6 See generally Restatement (Third) of Torts: Inten. Torts to
Persons § 105 T.D. No 1 (2015). Of note, most jurisdictions do not
require fear, only that the assault victim apprehended or
anticipated an imminent harmful or offensive contact to recover
in tort. Id. (“A better and more precise term [for apprehension] is
anticipation—that is, a conscious belief that harmful or offensive
contact is imminent, whether or not the plaintiff is fearful of that
outcome.”).
9

•'

•*k

defendant argued that the officer’s lack of fear of imminent harm
necessitated a judgment of acquittal on the aggravated assault
charge. The Second District agreed, concluding that the “State
failed to present sufficient evidence that the officer had a wellfounded fear that violence was imminent” under the
circumstances. Id. at 106 (emphasis added). As emphasized, the
deciding factor in Sullivan was the lack of imminent violence to
the officer (who was outside the path of harm) such that any fear
would be unfounded. Stated differently, whether the officer had
expressed fear or not was irrelevant in the legal analysis because
any such fear would not be “well-founded” under the objective
part of the assault statute under the circumstances.
The holding as to lack of imminence should have ended the
legal analysis because the officer’s subjective view played no role
in it. The panel in Sullivan, however, had said in passing that
“for the purpose of assault, it is not always necessary for the
victim to testify that he was afraid. . . . Where ‘the circumstances
were such as to ordinarily induce fear in the mind of a reasonable
man, then the victim may be found to be in fear, and actual fear
need not be strictly and precisely shown.’” 898 So. 2d at 108
(citations omitted).7 It then made the dubious and unnecessary
statement that the officer’s “subjective view of his lack of fear is
not dispositive of the legal import of [defendant’s] actions.” Id.
Because the panel held that a well-founded fear hadn’t been
proven, its statement as to the lack of importance of the officer’s
subjective view was unnecessary and clearly dicta.
Nonetheless, this pronouncement took on a life of its own as
then-Chief Judge Casanueva explained in his concurrence to the
7 These
statements
are
extrapolated from two
distinguishable Third District cases involving, as one might
expect, no victim testimony and a robbery. Biggs v. State, 745 So.
2d 1051, 1053 (Fla. 3d DCA 1999) (no testimony from victims);
Gilbert v. State, 347 So. 2d 1087, 1088 (Fla. 3d DCA 1977)
(concluding that it saw “no reason why the same rule [applied in
robbery cases] should not apply to aggravated assault” where
victim does not testify directly as to fear).

10

<p*

A

per curiam affirmance in S.P.M. v. State, 66 So. 3d 317 (Fla. 2d
DCA 2011), an aggravated assault case where the victim testified
to a lack of fear. His thoughtful and thorough analysis explains
how and why Sullivan may have jumped the gun
jurisprudentially and why a strict construction of the assault
statute did not justify displacement of the subjective standard.
Id. at 318 (“I write to express my concern that our case law
deviates from the plain meaning of the legislature's words in
section 784.011(1).”). He concluded as follows:
The fact that this court is bound by its prior decision in
Sullivan is the only reason I concur with my fellow
judges. Before Sullivan, the reasonable person standard
. . . had only been used when there was no direct
evidence of the victim's fear or lack thereof. By utilizing
a reasonable person standard in a case where the victim
testified that he was not afraid and there was no
evidence to the contrary, the Sullivan court essentially
eliminated the subjective standard that the statute
requires. I respectfully disagree with this court's holding
in Sullivan that the reasonable person standard should
be applied even in the face of direct, uncontroverted
evidence from the victim regarding his subjective state
of mind. However, because I am bound by that
precedent, I concur in result only.
S.P.M., 66 So. 3d at 321 (citations omitted). Though Judge
Casanueva accepted Sullivan as binding, it is not at all clear that
the contested language was anything but dicta.
That said, Judge Casanueva’s plain reading of the assault
statute and its requirement of subjective fear would likely prevail
in a case where the victim “testified that he was not afraid and
there was no evidence to the contrary” presented. Id. at 321
(emphasis added). In this case, however, there is evidence to the
contrary, making the jury’s consideration of an objective standard
defensible. Unlike tort law (whose primary goal is remediating
personal losses caused by others), the criminal laws serve broader
societal purposes such as retribution, deterrence, restoration,
avoiding recidivism, and rehabilitation. Society has an interest in
ensuring that criminal conduct is punished and deterred even
11

k

■ l«

•'t'.

./

where a victim may want to refrain from participating as a
witness, perhaps due to the status of the defendant
(family/friend/etc.), fear of the defendant, and the like. Where a
victim has a motive to disclaim or diminish her fear, perhaps to
protect a defendant, it becomes justifiable to allow a jury to
determine the truth, which may be that the victim’s testimony is
unreasonable or unbelievable under the circumstances. Just as a
jury may reject a victim’s testimony that she was fearful, finding
it not well-founded under the circumstances, a jury may also
reject a victim’s testimony that she wasn’t fearful, finding that a
reasonable person would have had a well-founded fear under the
circumstances. Affirmance is thereby warranted.

Valarie Linnen, Jacksonville, for Appellant.
Ashley Moody, Attorney General, and Robert Quentin Humphrey,
Assistant Attorney General, Tallahassee, for Appellee.

12

i

*%.

-•* V

<5

I

EXHIBIT “B

55

I

I

111

Supreme Court of Jflortba
WEDNESDAY, MARCH 10, 2021
CASE NO.: SC20-1651
Lower Tribunal No(s).:
1D17-3675;
372016CF000959AXXXXX
MARIO DANIELS

vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

This cause having heretofore been submitted to the Court on jurisdictional
briefs and portions of the record deemed necessary to reflect jurisdiction under
Article V, Section 3(b), Florida Constitution, and the Court having determined that
it should decline to accept jurisdiction, it is ordered that the petition for review is
denied.
No motion for rehearing will be entertained by the Court. See Fla. R. App.
P. 9.330(d)(2).
POLSTON, LABARGA, LAWSON, COURIEL, and GROSSHANS, JJ., concur.
A True Copy
Test:

<22
John A, Tomasi.no
Clerk; Supreme Court
db
Served:

QUENTIN HUMPHREY
ROBERT "CHARLIE" LEE
MARIO DANIELS
HON. GWEN MARSHALL, CLERK
HON. KRISTINA SAMUELS, CLERK
HON. ANGELA COTE DEMPSEY, JUDGE

i

r> »

Supreme Court of Jflortba
WEDNESDAY, DECEMBER 2, 2020
CASE NO.: SC20-1651
Lower Tribunal No(s).:
1D17-3675;
3 72016CF00095 9AXXXXX
MARIO DANIELS
Petitioner(s)

vs.

STATE OF FLORIDA
Respondent(s)

In reviewing our records, we note that your case is subject to dismissal for
failure to comply with this Court’s direction. See Fla. R. App. P. 9.410.
We have not received the petitioner’s jurisdictional brief with appendix in
accordance with Florida Rule of Appellate Procedure 9.120(d). Failure to file the
above referenced documents with this Court within 15 days from the date of this
order could result in the imposition of sanctions, including dismissal of the
petition.
Please understand that once this case is dismissed, it may not be subject to
reinstatement.
A True Copy
Test:

^2.
John A. Tomasino
Clerk. Supreme Court
db
Served:
ROBERT Q. HUMPHREY
MARIO DANIELS

provided to
_ DESOTO GJ.
bailing

"■’fwAih INITIAL 5;
OFF'LL-^., ....-

-...MO
C-4

